HHS/OIG, Audit -"Review of Medicaid Claims for Beneficiaries Under the Age of 21 Who Reside in Institutions for Mental Diseases in the Commonwealth of Virginia,"(A-03-01-00225)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Beneficiaries Under the Age of 21 Who Reside in Institutions for Mental Diseases
in the Commonwealth of Virginia," (A-03-01-00225)
March 17, 2004
Complete
Text of Report is available in PDF format (550 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Virginia's Department of Medical Assistance Services improperly claimed Federal financial
participation (FFP) for medical services provided to institutions for mental diseases (IMD) residents under the age of
21.  In addition, Virginia did not maintain a complete listing of the residents in the IMD facilities.  The improper
claims occurred because Virginia did not have controls in place to preclude FFP from being claimed for medical services
provided to IMD residents under the age of 21.  Additionally, procedures were not adequate to identify all Medicaid
eligible patients in the IMDs.  The improper claims totaled $3,948,532 (FFP).  Additionally, Virginia failed
to identify 1,825 of the 5,571 residents included in our audit that were residents of IMD facilities.